������������������������������������
���������������������������
�����������������������������
October 1, 2005 to March 31, 2006




����������������������������������������������������������������
�������������������������������������������������������������������
���������������������������������������������������������martin luther king, jr.
Mission
The Oﬃce of Inspector General is an independent and objective voice
that helps Congress, the Board of Directors and PBGC protect the
pension beneﬁts of American workers by promoting positive change,
accountability and Integrity


Vision
We will be recognized by our stakeholders as the primary source of
objective & independent information for their key decisions


Values
Respect
We will treat others as we would like them to treat us


Integrity
We will be a role model of ethical behavior


Excellence
We will constantly innovate & improve the quality and value of our work
                              Pension Beneﬁt Guaranty Corporation
                                                             Ofﬁce of Inspector General
                                                1200 K Street, NW, Washington, DC 20005-4026


                                                                                          May 1, 2006


The Honorable Elaine Chao
Chairman, PBGC Board of Directors

On behalf of the Oﬃce of Inspector General for the Pension Beneﬁt Guaranty Corporation, I am
pleased to submit this Semiannual Report to the U.S. Congress, summarizing OIG activities for the
six-month period ending March 31, 2006. It details our eﬀorts to improve the economy and eﬃciency
of PBGC operations, our eﬀorts to prevent fraud, waste and misconduct, and fulﬁlls our reporting
requirements under the Inspector General Act.

In this report, we highlight work addressing areas we’ve identiﬁed as PBGC’s major management
challenges. Though our work identiﬁed several problems during this reporting period, I am pleased
to report that PBGC made considerable progress in addressing these challenges. Our ﬁnancial audits
have identiﬁed signiﬁcant improvements in internal controls and corporate governance; eﬀorts are
underway to reassess contracts for ﬁeld operations; PBGC is working hard to implement a consolidated
ﬁnancial system by yearend; and we have worked closely with the Oﬃce of General Counsel to
improve oversight of contracts. I am particularly pleased with the Chief Financial Oﬃcer’s eﬀorts to
assign accountability and aggressively oversee corrective actions for audit recommendations.

Despite this progress, management and OIG agree that much will need to be done to address
unprecedented ﬁnancial challenges. PBGC has suﬃcient resources to pay participants guaranteed
beneﬁts for a number of years, but I remain concerned that PBGC lacks the funds it needs to pay future
beneﬁts for which it is obligated. Comprehensive reform is needed to protect the pensions of workers
and retirees, and the viability of the pension insurance system.

There is little doubt that the Corporation will continue to deal with dramatic increases in workload
and a growing deﬁcit caused by terminations of underfunded plans. Increasingly, PBGC is involved in
bankruptcies where stock is received for unfunded pension liabilities. These types of complex ﬁnancial
transactions will require the Corporation to develop strong policies and procedures to protect the
interest of participants in trusteed plans. In the coming months, we will evaluate the Corporation’s
process for these types of transactions and make recommendations to improve controls.

We are very proud of our investigative unit’s work to obtain indictments of those involved in an
identity and pension check theft scheme, aimed at protecting the pension beneﬁts of participants
and safeguarding PBGC assets. Aaron Jordan, our new Assistant Inspector General for Investigations,
will increase our capability with a wealth of experience in contract and ﬁnancial investigations. Our
investigators will continue to work with management to improve controls and prevent fraud, and we
will continue to collaborate with the Oﬃce of General Counsel to strengthen the ethical environment.


In closing, I want to express my gratitude for your support of my oﬃce as well as the spirit of
cooperation from the management. We are proud to be part of an organization that protects the
pensions of over 44 million Americans, and will constantly strive to keep its programs eﬃcient,
eﬀective and free from fraud waste and abuse.




Robert L. Emmons
Inspector General
PENSION BENEFIT GUARANTY CORPORATION
Table of Contents
Letter to the Chairman
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
The Pension Beneﬁt Guaranty Corporation
The Oﬃce of Inspector General
Audits . . .�                                                                                                                       5
Overview
Audit Activity
    Governance
    Financial Management
    Information Technology
    Procurement and Contracting
    Program Performance
Other Audit Activity
Access to Information
Management Decisions
Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Overview
Activity This Period
    Signiﬁcant Investigations
    Fraud and Awareness Alert
    Follow-up on Agency Administrative Action
    Summary of Investigative Activities
Other Oﬃce of Inspector General Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Review of Proposed Statutory and Regulatory Changes
Internal PBGC Activities
External Activities
Internal OIG Activities
Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Cross-Reference to Reporting Requirements of the Inspector General Act
Reports Issued with Questioned Costs and Funds Put to Better Use
Signiﬁcant Problems, Deﬁciencies and Recommendations
Glossary�                                                                                                                         28




                                                   SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006                                  iii
PENSION BENEFIT GUARANTY CORPORATION
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments of
the Pension Beneﬁt Guaranty Corporation (PBGC) Oﬃce of Inspector General (OIG) for
the period October 1, 2005, through March 31, 2006. When accomplishing audit and
investigative work, we ensure that it accords with our mission to be an “independent
and objective voice for Congress, the Board of Directors, and PBGC.” We want to focus
our work on the challenges facing PBGC and to be the primary source of timely and
objective information for the organization. We will accomplish our work demonstrating
our values of respect, excellence, and integrity.

During this period, we conducted work in all areas designated as Management
challenges, focusing much of our audit eﬀort on the ﬁnancial statement audit and its
related reports, and contract audits.

 • Governance— the Board of Directors and PBGC Executives focused on
   strengthening ﬁnancial oversight, ethics and communication (see page 5).
 • Financial management— we issued the 13th consecutive unqualiﬁed ﬁnancial
   statement audit opinion and management letter reports for ﬁnancial and
   information technology issues, sponsored “lessons learned” survey and discussions
   sessions along with the Chief Financial Oﬃcer (see page 6).
 • Information technology — our FISMA report highlighted a concern about systems
   certiﬁcation and accreditation, Continuity of Operations became a reportable
   condition as the result of a major disruption of e-mail and business systems (see
   page 9).
 • Procurement and contracting—we audited PBGC’s procurement process and four
   large-dollar contracts (see page 11).
 • Program performance—we evaluated PBGC’s process for verifying participants’
   continued eligibility for disability beneﬁts and earnings limitations (see page14).


In the investigative area, we received a large number of allegations, many of which we
were able to close during the inquiry stage. We opened 23 new cases, and closed 13
cases and 18 inquiries. Signiﬁcant investigative work this period included:

 • uncovering a fraud scheme that spans several states to steal the identity of “missing
   participants” and obtain pension checks ranging from $4,000 to $21,000 (see page
   17);
 • working a joint investigation with the Social Security Administration to obtain
   prosecution of a deceased participant’s daughter and restitution of money paid to
   her (see page18); and
 • multiple brieﬁngs and outreach activities focused on fraud prevention and
   detection (see page 18).


OIG staﬀ participated in many internal and external activities, including active
participation in several PBGC mentoring programs as senior mentors, and activities
impacting the IG community. The Inspector General was elected as Chairman of the
Board of Governors of the newly-formed Inspector General Institute.




                               SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006       1
2   PENSION BENEFIT GUARANTY CORPORATION
Introduction
The Pension Benefit Guaranty Corporation
The Pension Beneﬁt Guaranty Corporation (PBGC, or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA), as                    Each month, PBGC
amended (5 U.S.C. §§ 1301-1461), as a self-ﬁnancing, wholly owned federal government
Corporation to administer the pension insurance program. ERISA requires that PBGC:               pays about $300,000
(1) encourage the continuation and maintenance of voluntary private pension plans, (2)               in pension beneﬁts
provide for the timely and uninterrupted payment of pension beneﬁts to participants and
beneﬁciaries, and (3) maintain premiums at the lowest level consistent with carrying out              to about 600,000
PBGC’s obligations.                                                                                            retirees.
For about 44 million Americans, PBGC provides assurance that their retirement beneﬁts
will be paid, up to a statutory limit. PBGC protects the pensions of participants in certain
deﬁned beneﬁt pension plans (i.e., plans that promise to pay deﬁnitely determinable
retirement beneﬁts). Such deﬁned beneﬁt pension plans may be sponsored individually
or jointly by employers and unions. PBGC is now responsible for the pensions of about 1.3
million people, including about 700,000 who will receive beneﬁts when they retire in the
future. PBGC pays about $300 million a month to about 600,000 current retirees.

The Office of Inspector General
The mission of the Oﬃce of Inspector General (OIG) is to be an independent and
objective voice that helps the Congress, the Board of Directors, and PBGC protect the
pension beneﬁts of American workers by promoting positive change, accountability, and
integrity. To accomplish our mission, the OIG conducts agency audits, inspections, and
investigations to provide our stakeholders with information they need to make decisions.
                                                                                                 The OIG is committed
This period saw signiﬁcant change in OIG personnel: we welcomed a new Assistant IG for                  to our values of
Investigations, Aaron Jordan, and a new investigator; we said good-bye to 2 auditors. Of
                                                                                                     respect, excellence
the 22 authorized positions, we are currently recruiting to ﬁll ﬁve positions.
                                                                                                          and integrity.
To provide value, OIG focuses work on the challenges that PBGC is facing, whether we
are issuing audit, evaluation, and investigative reports or consulting with PBGC and
participating on various teams and in working groups. We are committed to our values of
respect, excellence, and integrity in all we do.

Our approach to audit planning concentrates our eﬀorts on identifying issues that are
important to PBGC. We maintain an inventory of suggested audits that we receive from a
variety of sources, including the Board of Directors and PBGC management. Each year, we
assess risk in terms of materiality, impact on operations, and potential for adverse publicity
for the Corporation. Based on this risk assessment, we identify the most important
challenges on which to focus our work. The ﬁnal step is to plan and conduct audits that
address those challenges. We continue to focus on these major questions:



                                 SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006           3
                             • Does PBGC have a governance model that ensures reliable and complete ﬁnancial
OIG briefs the Board           reporting, eﬀective customer service, and ethical business dealings?
of Directors on its          • Does PBGC have strong ﬁnancial controls that are needed to protect assets and
                               minimize costs?
work twice each year.
                             • Does PBGC eﬀectively balance operational eﬃciency with optimal customer service?
                             • Do PBGC contractors provide quality products and services at a reasonable price?
                             • Do PBGC’s information systems maximize customer service while protecting the
                               privacy and integrity of information?

                           We have scheduled audits and reviews in 2006 to address each of these challenges.

                           As required by the Chief Financial Oﬃcers Act, we continue to audit PBGC’s ﬁnancial
                           statements. The OIG contracts with an independent public accountant to perform
                           this work.

                           In our attempt to maximize limited resources, our approach to investigations is to
                           apply strict criteria in evaluating the quality of the allegations received. For example,
                           we evaluate allegations against the potential criminal and civil violations, the statute
                           of limitations, the potential for negative publicity for PBGC, and the total assets
                           involved. This allows us to concentrate on investigative issues that are most important
                           to PBGC.

                           The OIG follows the standards contained in the Quality Standards for Federal Oﬃces of
                           Inspector General, published by the President’s Council on Integrity and Eﬃciency (PCIE)
                           and the Executive Council on Integrity and Eﬃciency (ECIE). These standards require
                           audits to be conducted in accordance with Government Auditing Standards, issued by
                           the Government Accountability Oﬃce. Our investigations comply with Quality Standards
                           for Investigations, which have been accepted by the PCIE and ECIE.




                       4   PENSION BENEFIT GUARANTY CORPORATION
Audits
Overview

Our audit approach is to focus our work on areas that present signiﬁcant management               The PBGC Board of
challenges to PBGC. Using our past work and input from the Board of Directors
and management, we conducted work this semi-annual period to address ﬁnancial                Directors is comprised
management, information technology, procurement and contracts, and program                       of the Secretaries of
performance issues. We consulted with PBGC leadership on various governance issues.
The OIG staﬀ participated on corporate-wide teams addressing various issues of joint         Labor, Commerce and
concern. Our goal is to have a positive impact on the decision-making process of the                        Treasury.
Board of Directors and PBGC management. The following paragraphs summarize the
work of our auditors for each major management challenge.



1.     Governance
Governance is a major challenge of the Corporation, particularly as it struggles with
a growing deﬁcit and record numbers of terminated pension plans and participants.
Oversight of the ﬁnancial operations and ﬁnancial reporting by the Board of Directors,
PBGC management and the OIG is critical to eﬀective corporate governance. Equally
important is the ethical tone set by PBGC leaders as we conduct our business. Examples
of the Board’s and the Corporation’s demonstrated commitment to eﬀective ﬁnancial and
program oversight include:

     Financial Oversight
     • Recognizing that PBGC might signiﬁcantly impact the economy because of
       its claims in some of the nation’s largest bankruptcies, the Board indicated its
       interest in setting policy to guide PBGC’s bankruptcy claims’ settlement.
     • The Board approved changes to PBGC’s investment strategy recommended by
       management.
     • The Chief Financial Oﬃcer (CFO) clariﬁed his accountability role and responsibility
       for ﬁnancial reporting, and continued eﬀorts to comprehensively identify,
       document, test and report on signiﬁcant controls. PBGC is one of a handful of
       Federal agencies that receives an audit opinion on internal controls each year.
     • The Chief Administrative Oﬃcer strengthened oversight of procurements,
       focusing on issuing performance-based contracts.                                              We work closely
                                                                                                   with the Oﬃce of
     Ethics
                                                                                                 the General Counsel
     • The General Counsel co-presented training with the Inspector General on ethical
       leadership.                                                                                    to promote an
     • The Chief Financial Oﬃcer took swift action to notify managers of and correct an              ethical working
       improper timekeeping practice.
                                                                                                       environment.



                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006        5
           Communication
           • The Executive Director continued his commitment to better communication
             within PBGC through monthly messages to all employees and swift
             intervention when the OIG raised concerns about management
             responsiveness to issues.
           • The Consolidated Financial Systems Steering Committee, in which the IG
             participates as a non-voting member, continues to meet regularly to monitor
             implementation progress and discuss issues and barriers to success.


    The Board of Directors, which includes the Secretaries of Labor, Treasury and
    Commerce, met in February 2006 to discuss critical issues and oversee corporate
    management and initiatives. The meeting included an executive session with the
    Inspector General.

    OIG will continue to work with the Board and management for a governance model
    that ensures reliable and complete ﬁnancial reporting, eﬀective customer service, and
    ethical business dealings.


    2.       Financial Management

    PBGC is a major government enterprise that manages assets of more than $57 billion.
    In FY 2005, the Corporation paid out about $3.7 billion in beneﬁt payments to retirees.
                               Additionally, PBGC is suﬀering severe ﬁnancial losses as
                               a result of terminated pension plans. For these reasons,
                               strong ﬁnancial management controls are needed to
                               protect assets and minimize costs. OIG continues to focus
                               much of its work on ﬁnancial management issues to help
                               PBGC address this challenge.
                                As of September 30, 2005, the single-employer and
                                multiemployer programs reported deﬁcits of about $22.8
                                billion and $335 million, respectively. This was a slight
                                improvement over FY 2004, in which PBGC reported the
                                largest deﬁcit in its 30-year history of more than $23 billion.
                                   •     The single-employer program had assets of nearly
                                   $56.5 billion which is oﬀset by total liabilities of $79.2
         billion. PBGC’s liabilities in the single-employer program are primarily comprised
         of the present value of future beneﬁts it owes to participants in terminated
         and trusteed pension plans. In FY 2005 the liability for future beneﬁts was
         approximately $69.7 billion.
     • The multiemployer program had assets of approximately $1.2 billion oﬀset by
       liabilities of approximately $1.5 billion. In this program, plans are not terminated
       but rather PBGC pays ﬁnancial assistance to insolvent plans for payment of
       guaranteed beneﬁts and administrative expenses. Liabilities in the multiemployer
       program are the present value of non-recoverable future ﬁnancial assistance.


6   PENSION BENEFIT GUARANTY CORPORATION
Despite these deﬁcits, the Corporation has suﬃcient liquidity to meet its obligations
for a number of years; however, neither program at present has the resources to fully
satisfy PBGC’s long-term obligations to plan participants.


For the second year, PBGC issued its audited ﬁnancial statements by the November
15th deadline. This was made possible by a team eﬀort of the Board Representatives,
PBGC management, Clifton Gunderson LLP, and the OIG.


PBGC continues to make good progress in improving ﬁnancial management. This is
the 13th consecutive year PBGC has received an unqualiﬁed opinion on its ﬁnancial
statements. PBGC also made signiﬁcant progress in correcting internal control
weaknesses. Two reportable conditions that were reported last year were corrected:
contingent liabilities for the Single-Employer Program Fund and identifying and
classifying probable Multiemployer plans.


Audit of the Pension Beneﬁt Guaranty                                                                 PBGC is working
Corporation’s Fiscal Year 2005 and 2004                                                                to correct four
Financial Statements (2006-1/FA-0014-1)
                                                                                              Reportable Conditions:
We contracted with the independent public accounting ﬁrm of Clifton Gunderson LLP
to audit the ﬁnancial statements of the Single-Employer and Multiemployer Program               - Systems Integration
Funds administered by PBGC as of September 30, 2005. The audit was performed
in accordance with auditing standards generally accepted in the United States of
                                                                                               - Information Security
America, Government Auditing Standards issued by the Comptroller General of the
United States, and the GAO/PCIE Financial Audit Manual.
                                                                                        - Single-employer Premiums
Clifton Gunderson’s ﬁnancial audit found:
                                                                                            - Planning for Unexpected
 • The ﬁnancial statements were fairly presented, in all material respects, in
                                                                                                     Systems Outages
   conformity with accounting principles generally accepted in the United States of
   America.
 • PBGC’s assertion about internal controls over ﬁnancial reporting was fairly
   stated, however, there were four reportable conditions: ﬁnancial management
   systems integration, information security, and single-employer premiums, and
   preparedness for unanticipated incidences and disruptions, which is new this year.
 • No instances of noncompliance with tested laws and regulations.


The ﬁnancial statements of the Single-Employer and Multiemployer Program Funds
administered by PBGC as of September 30, 2004 were audited by other auditors whose
report expressed an unqualiﬁed opinion on those ﬁnancial statements (November 12,
2004, OIG Report 2005-2/23182-2).




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006   7
    While we are encouraged by the Corporation’s eﬀorts to improve ﬁnancial
    management, PBGC management understands that further improvement is needed.
    The Corporation still has three reportable conditions related to its ﬁnancial reporting
    that were reported in prior years. Integration of ﬁnancial systems is the Corporation’s
    biggest challenge because it addresses many of the control weaknesses in the
    remaining reportable conditions. PBGC plans to implement a new general ledger
    system as part of PBGC’s corrective action plan to correct the systems integration issue.
    The project is under contract and should be through its major milestones for general
    ledger consolidation and be into the second round of business process reengineering
    by mid-FY 2007.

    The most important ingredient in correcting the remaining reportable conditions is
    continued strong commitment on the part of management to implement corrective
    actions. PBGC management continues to emphasize the importance of correcting all
    of the reportable conditions. OIG is meeting routinely with the Chief Financial Oﬃcer
    and Department Directors to discuss reportable conditions and review corrective
    action plans.


    Fiscal Year 2005 Financial Statement - Management Letters
    Financial (2006-5/FA-0014-2) and Information Technology (2006-6/FA-0014-3)

    During the ﬁnancial statement audit, Clifton Gunderson identiﬁed internal control
    weaknesses related to ﬁnancial reporting and information technology that were not
    included in their audit reports. We issued two management letters to summarize these
    ﬁndings and recommendations—one for ﬁnancial reporting and one for information
    technology. Some of the signiﬁcant recommendations included PBGC’s need to:

      • Develop and implement procedures to ensure timely monitoring and analysis
        throughout the year;
      • Establish controls to restrict unnecessary access to participant records;
      • Ensure errors in the Participant Records Information Systems Management (PRISM)
        are corrected;
      • Enhance reconciliations between status reports and PRISM;
      • Develop, document and implement procedures to timely issue statements of
        account and past due ﬁling notices for premiums owed PBGC;
      • Implement corrective actions more timely;
      • Improve risk management within the information technology areas, in both
        infrastructure and systems; and
      • Enhance its ability to provide continuity of operations in the event of an
        unexpected interruption to normal business processes.


    Each of the recommendations was thoroughly discussed with PBGC management and
    they agreed to implement corrective actions.


8   PENSION BENEFIT GUARANTY CORPORATION
Lessons Learned from FY 2005 Financial Statement Audit
(2006-10/FA-0023)
                                                                                                  Lessons Learned:
For the second year, the OIG, in cooperation with the Chief Financial Oﬃcer, conducted
a survey to identify lessons learned during the FY05 ﬁnancial statement audit. After            - Early reporting of
survey responses were compiled, key stakeholders met to discuss and provide                           audit ﬁndings
suggestions for improvement. Our goal is to incorporate best practices into future
ﬁnancial statement audits and improve on those practices and procedures that were              - Rigorous quarterly
not eﬃcient or eﬀective. Best practices identiﬁed include:                                          closing process

  • The auditors’ notice of ﬁndings reports notiﬁed managers in a written format of                - Regular status
    identiﬁed audit ﬁndings and recommendations. This served as an early warning                         meetings
    system to management of potential ﬁndings, providing an opportunity to respond
    and discuss them with the auditors before disclosure in a draft report.
  • Following the theme of reporting early, the auditors also provided a copy of their
    internal control report to the Corporation in mid-October, about a month earlier
    than in past years.
  • Regular audit status meetings with key stakeholders were a means to provide
    information on audit issues, obstacles, and time lines.
  • The Chief Financial Oﬃcer began conducting quarterly close meetings, and
    auditors were invited to participate in open discussion about the various ﬁnancial
    statement accounts. This was a best practice we identiﬁed in last year’s lessons
    learned report, to reduce the pressure to close the records at year-end and help
    meet the November 15 deadline.


There were also a number of suggestions for improvement in the ﬁnancial processes
and procedures, among them:

  • The auditors will look for opportunities to familiarize PBGC managers and
    staﬀ on the purpose, scope and methodology of the audit to promote a better
    understanding of the audit process and why the auditors need requested
    information.
  • To promote greater accountability and communications, the Chief Financial Oﬃcer
    will emphasize that he is PBGC’s point of contact responsible for coordinating and
    directing management activities that support the audit.
  • There will be a single Provided By Client (PBC) list for all documents and a single
    Management Letter Report, rather than separate lists and reports for ﬁnancial and
    IT documents and ﬁndings.


While all of these lessons learned are important, there are two ongoing initiatives that
we believe will help make meeting the annual November 15 deadline a more routine
business practice:

  • continuing to close the ﬁnancial records quarterly, and
  • completing the consolidation of the Corporation’s three general ledgers.

                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006      9
                          3.      Information Technology

                          Protecting the privacy and integrity of customer information is a major challenge for
                          PBGC. The OIG continues to perform work to assist the Corporation in meeting this
                          challenge.

                          Federal Information Security Management Act (FISMA) Report

                          PBGC continues to improve its information security infrastructure in compliance with
                          the Federal Information Security Management Act of 2002, as reported to the Oﬃce of
                          Management and Budget (OMB). During FY 2005, PBGC took steps to identify levels
                          of security required to control and protect its assets and information, and further
                          improve its security program, including:

                            • Improving the monitoring and auditing process;
                            • Performing semi-annual certiﬁcations of system servers to ensure implementation
                              of current security updates;
                            • Improving security awareness training by implementing computer-based training
                              and brieﬁngs with awareness videos for annual and newly hired personnel
                              training;
                            • Improving security awareness for detecting, reporting, and responding to security
                              incidents; and
                            • Improving overall external access to PBGC systems.


                          OIG has reported information security internal controls and operational conditions as
                          a reportable condition since 2002. Although progress is being made in some areas
We remain concerned       related to information security, PBGC needs to enhance its eﬀorts in the areas of
about PBGC’s progress     organizational responsibility and authority, policy development and implementation,
                          risk assessment and mitigation, and physical security controls.
in systems certiﬁcation
                          We are concerned about the lack of progress on the certiﬁcation and accreditation
and accreditation.
                          of major business and general support systems. We previously reported this issue in
                          our FISMA report, and OMB has increased its focus on certiﬁcation and accreditation.
                          PBGC has developed and implemented a plan to evaluate its major business and
                          general support systems over a three-year period. Although this generally complies
                          with OMB A-130 guidance, PBGC has not fully complied with requirements to formally
                          document the certiﬁcation and accreditation process and produce letters supporting
                          the accreditation of its business and general support systems. Additionally, PBGC
                          needs to identify and improve its adherence to other requirements and guidance, such
                          as the National Institute of Standards and Technology (NIST) Special Publications
                          800-37 Guide for the Security Certiﬁcation and Accreditation of Federal Information Systems,
                          800-53 Recommended Security Controls for Federal Information Systems and Federal
                          Information Processing Standards Publication (FIPS) 199 Standards for Security
                          Categorization of Federal Information and Information Systems.



                     10   PENSION BENEFIT GUARANTY CORPORATION
We are encouraged that management continues its work on another reportable
condition: to integrate its ﬁnancial systems to improve operational eﬃciency and
eﬀectiveness as well as data security. PBGC made signiﬁcant progress on the
Consolidated Financial Systems project in FY 2005. The project is targeted to be
through its major milestones for general ledger consolidation and into the second
round of business process reengineering by mid-FY 2007.

Preparedness for Unanticipated Systems Disruption

PBGC suﬀered a major disruption in its e-mail and business systems in September
2005. Although PBGC has developed signiﬁcant elements of a Continuity of                            PBGC needs to
Operations Plan (COOP), service continuity control deﬁciencies impacted PBGC’s ability
to respond to a disruption in business operations. Losing the capability to process and            minimize risk of
protect information maintained on PBGC’s computer systems can signiﬁcantly impact               unplanned systems
PBGC’s ability to accomplish its mission, maintain productivity, and ensure ﬁnancial
integrity. As a result, the need to strengthen its preparedness for unanticipated                      disruption.
incidences and disruptions became PBGC’s fourth reportable condition in this year’s
ﬁnancial statement audit.

PBGC contracted for an independent review of PBGC’s information technology
infrastructure and its ability to support a recovery of operations. The report concluded
that multiple failures occurring in a short period of time contributed to the outage,
and recommended that PBGC perform a comprehensive risk assessment of the
information technology infrastructure to react to a similar situation and better support
the recovery of essential systems. Management provided their corrective action plans,
and we will review the eﬀectiveness of their actions during the annual ﬁnancial audit.

The OIG will continue to monitor COOP testing and provide feedback to help
management achieve their goal of having a reliable plan for recovery of operations in
an emergency.

ID Badge Management

As a result of work performed during the FY 2005 Financial Statement Audit,
PBGC has on-going initiatives to strengthen building security by improving ID
badge management. Until the Homeland Security Directive HSPD-12/Personnel
Identiﬁcation Veriﬁcation program is implemented, PBGC is looking for ways to
improve its ability to identify and verify employees and contractors. At PBGC’s request,
the OIG benchmarked PBGC’s methods for identifying and verifying staﬀ with nine
Federal agencies. PBGC plans to use the benchmarking information to identify best
practices.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006      11
     4. Procurement and Contracting

     PBGC contracting activity doubled from 1999 to 2005, and the Corporation reports
     that it spends about two-thirds of its annual budget through contracts. This volume
     of expenditures makes contract management a major challenge and we devote a
     signiﬁcant portion of our audit resources to overseeing procurement and contracting
     activities. Our audits have focused on two areas:


      • Identifying improvements to PBGC’s procurement process, and
      • Verifying that contractor billings were allowable, reasonable, supported and
        consistent with the terms of contracts.

                      Growth in PBGC Contract Dollars

             250

             225

             200

             175

             150

             125
               2001        2002       2003       2004   2005
                                   Fiscal Year




     Procurement Cycle Performance Audit
     (2006-9/CA-0010)

     OIG contracted with an Independent Public Accountant (IPA) to audit whether the
     Procurement Department’s process for acquisitions in excess of $2,500 complied with
     speciﬁc provisions of PBGC’s ﬁnancial management directives and polices and the
     Federal Acquisition Regulation (FAR).

     Overall, the PBGC procurement process was operating eﬀectively, however, the
     audit identiﬁed instances of noncompliance with PBGC ﬁnancial management
     directives and policies. In addition, PBGC lacks comprehensive documentation of the
     procurement process for originators, Contracting Oﬃcer’s Technical Representatives
     (COTRs), and Contract Specialists to use. For example,

      • Large purchase contract ﬁles maintained by the Procurement Department, General
        Accounting Branch, and the COTR did not contain all documentation required by
        PBGC directives, policies and procedures, and the FAR.
      • The COTR/contract database maintained by the Procurement Department did not
        always contain the most up-to-date contract administration information.
      • Final invoices certiﬁed for payment by the COTR were not always indicated as
        being the ﬁnal invoice under the large purchase.
      • Large purchases were not always closed-out within the time requirements
        established by the FAR.


12   PENSION BENEFIT GUARANTY CORPORATION
Audit of PBGC Contractor for Actuarial Services
(2006-2/CA-0011)

Using an IPA, we conducted an incurred cost audit on a contract for actuarial services
for ﬁscal years ended September 30, 2003 and 2004. The contract was valued at $12.3
million. The audit objective was to assess whether amounts billed to PBGC by the
contractor were allowable, reasonable, supported, and consistent with contractual
provisions. The audit resulted in questioned $2.1 million in costs related to the
following issues:

  • Adequate support documentation for labor hours was not maintained for three
    current employees of the contractor.
  • Adequate support documentation for labor hours was not maintained for 14
    separated employees of the contractor.
  • Work hours for non-work activities were not reduced for one employee of the
    contractor.


Agreed-Upon Procedures Report on PBGC Actuarial Contractor
(2006-2/CA-0012)

OIG contracted with an IPA to conduct Agreed-upon Procedures on a contract issued
                                                                                               Our contract audits
for actuarial services. The contract was valued at $3.7 million. The audit objective
was to assess whether amounts billed to PBGC by the contractor were allowable,                     identiﬁed more
reasonable, supported, and consistent with contractual provisions. The audit resulted
                                                                                                than $3 million in
in questioned $1.2 million in costs related to the following issues:
                                                                                                 questioned costs.
  • Adequate support documentation for labor hours was not maintained for two
    current employees of the contractor.
  • Adequate support documentation for labor hours was not maintained for 11
    separated employees of the contractor.


The report recommends corrective actions including a determination of the
allowability of the questions costs and initiation of necessary collection actions.

Incurred Cost Audit of PBGC Contractor for Systems Development Work
(2006-4/CA-0022)

We contracted with the Defense Contract Audit Agency (DCAA) to conduct an audit
of incurred costs on two contracts issued to a PBGC contractor: one for systems
administration for PBGC’s Participant Application Maintenance Team, and another
for software development services for the Participant Records Information Systems
Management. The contracts were valued at $7.3 million and $1.4 million, respectively.
The audit objective was to determine the allowability of direct and indirect costs, and
to establish audit-determined indirect costs rates for the next contract year. DCAA




                                 SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006    13
                             questioned costs of $42,687 for the ﬁscal period under their review. These questioned
                             costs are a result of the contractor exceeding the indirect ceiling rate for direct labor
                             that was established by the contract. The contractor concurred with the audit results
                             and we recommended to PBGC’s Procurement Director to initiate the necessary
                             collection actions of $42,687.


                             Incurred Cost Audit of PBGC Contractor for Actuarial Services

                             The OIG conducted an audit of incurred costs on two contracts issued for actuarial
                             services to PBGC. The contracts were valued at $1.5 million and $18.4 million. Our
                             audit objective was to assess whether amounts billed to PBGC by the contractor were
                             allowable, reasonable, supported, and consistent with the terms and conditions of
                             the contract. We did not identify any questioned costs or audit ﬁndings related to the
                             contractor for either contract we audited.



                             5. Program Performance
                             Audit of Disability Beneﬁts and Earnings Limitations
                             (2005-PA-0016)

                             When PBGC terminates a pension plan, it pays beneﬁts to the plan participants
At PBGC’s request,           according to that plan’s provisions. Each plan speciﬁes restrictions on beneﬁt
                             payments. These may include terminating the beneﬁt if the participant is no longer
OIG evaluated the
                             disabled, and reducing the beneﬁt based on earned income or receipt of social
process for verifying        security. If PBGC does not adjust the beneﬁts according to the plan provisions, then it
                             pays beneﬁts to participants who are no longer eligible.
continued eligibility
for disability beneﬁts.      At the request of the Chief Operating Oﬃcer, we conducted an audit of PBGC’s ability
                             to identify, monitor, and process required plan adjustments to participants who (1)
                             receive disability retirement payments, or (2) are subject to earning limitations.
                             Based on our work, we concluded that PBGC needs to:

                               • establish an overall policy to identify and verify plan participants’ continuous
                                 eligibility to receive disability beneﬁts,
                               • identify the universe of participants receiving disability payments, and
                               • include the controls necessary to identify and monitor participants to verify
                                 continuous eligibility to beneﬁts in information systems.


                             PBGC management agreed with our ﬁndings and agreed to implement actions that
                             satisfy the intent of our recommendations.




                        14   PENSION BENEFIT GUARANTY CORPORATION
Other Audit Activity
Developed Contract Risk Assessment Tool

When we assumed the contract audit function in September 2004, we selected
contracts for audit based primarily on the value of contracts. After benchmarking
with other OIGs, we developed a risk assessment model that includes factors such as
contract type, prior audits with questioned costs, the contractor’s adverse publicity,
and the total value of the contracts. We will apply the model to PBGC’s contract
database semiannually to assess and select contracts for audit.


Access to Information

Under the Inspector General Act, the Inspector General is to have unfettered access
to all agency records, information, or assistance when engaged in an investigation
or audit. Whenever access to requested records, information, or assistance is
unreasonably refused or not provided, the Inspector General must promptly report the
denial to the agency head.

During this six month reporting period, the Inspector General’s access to information
was not restricted.


Management Decisions
The Inspector General is required to report the following about management decisions
on audit reports that occurred during this six-month period:

  • There were no audit reports for which there was not a management decision.
  • There were no signiﬁcant revised management decisions.
  • There were no management decisions with which the Inspector General
    disagreed.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006    15
16   PENSION BENEFIT GUARANTY CORPORATION
Investigations
Overview
A major responsibility of the Inspector General is to receive and investigate complaints
from PBGC employees, the public, and other sources concerning violations of law,
rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
a substantial and speciﬁc danger to the public health and safety. Individuals may
disclose information or make complaints to the Inspector General through the OIG
Hotline (see announcement on back cover page). The Inspector General protects the
legal rights of whistle-blowers and complainants and takes great care not to disclose
their identity without their consent.


OIG Hotline

The OIG operates a separate toll-free Hotline telephone number and a conﬁdential
Hotline post oﬃce box. The OIG Hotline telephone is answered by an investigative staﬀ
assistant for a two-hour period, Monday through Friday. At all other times, a recorded
message provides information about the Hotline service and refers callers to our main
telephone number.


Activity This Period
                                                                                                      Conspiracy
Signiﬁcant Investigations
                                                                                                Money Laundering
Identity Theft in the Missing Participant Program                                                      Fraudulent
                                                                                                 Birth Certiﬁcates
When a pension plan terminates, some participants who are owed a beneﬁt may
not be located. PBGC assumes responsibility for locating and paying these “missing                    Fraudulent
participants” who are in pension plans that PBGC insures. PBGC has a database of more                 Documents
than 26,000 “missing participants” who are owed more than $75 million dollars.
                                                                                                 = Pension Fraud
PBGC referred suspicious activity for 15 diﬀerent participants who were issued beneﬁt
checks ranging from $4,000 to $21,000. We have uncovered a fraud scheme that spans
several states with:

  • Checks redirected through fraudulent address changes to the local DC
    metropolitan area;
  • 15 fraudulent birth certiﬁcates from 5 States; and
  • 5 banks in 3 States with evidence of money laundering, bank fraud, and forgery.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006      17
                       We have tracked the majority of the checks to the actual individuals who cashed the
                       pension checks and are working with PBGC to have the checks re-issued to the correct
                       individuals. To date, there has been more than $174,000 scammed from the Missing
                       Participant Program.

                       In the Western District of Pennsylvania, we are working with a ﬁnancial crimes task
                       force in concert with an Assistant United States Attorney. We have one indictment
                       pending with the potential of others to follow. In addition, we noted several internal
                       control weaknesses that enabled the identity thieves to perpetrate their fraud, which
                       we have reported to PBGC. This is an ongoing investigation.

                       Pension Fraud

                       We are currently working a joint investigation with the Social Security Administration
                       (SSA) Oﬃce of Inspector General involving an over payment of $15,000 from the
                       PBGC and more than $6,500 from the SSA. After a participant died, her daughter
                       failed to notify either PBGC or SSA of the death so that monthly payments continued.
                       The daughter then used the funds for personal purposes. Restitution and Federal
                       prosecution is pending.

                       We closed 8 inquiries that raised issues of fraud relating to pension plans and beneﬁts.


                       Fraud Prevention and Detection

We continuously        As part of our strategic plan, we continuously seek to give our stakeholders a better
                       understanding of the roles they and the OIG have in detecting and preventing fraud.
promote fraud
prevention and           • The AIGI met with the Director of the National Capital Region, Federal Protective
detection.                 Service (FPS) to discuss the viability of the FPS providing coverage for PBGC. As
                           a result, the OIG arranged a subsequent meeting between the FPS and PBGC’s
                           Facilities department. The FPS provided a limited physical vulnerability site survey
                           for the PBGC. Further action is pending another meeting between PBGC and the
                           FPS.
                         • While presenting fraud awareness brieﬁngs in agency training on a new time
                           keeping system, we learned of a signiﬁcant internal control weakness related to
                           managers’ certifying their employee’s time. We alerted the CFO, who immediately
                           issued guidance to all PBGC managers about their certiﬁcation responsibilities and
                           warning of possible discipline for violations.
                         • The investigators are speaking to Federal employees about the OIG mission and
                           fraud prevention in PBGC training on the new e-travel system.




                  18   PENSION BENEFIT GUARANTY CORPORATION
SUMMARY OF INVESTIGATIVE ACTIVITIES
For The Six-month Period Ending March 31, 2006
Investigations
    Pending beginning of period                              13
    Opened                                                   23
    Closed                                                   13
    Pending end of period                                    23
Inquiries
    Pending beginning of period                               9
    Opened                                                   19
    Closed                                                   18
    Pending end of period                                    10
Financial Recoveries*
    Theft of Funds Recovered                                  0
    Court Ordered Fines, Penalties, and Restitution           0
    U.S. Government Property Recovered                        0
Criminal Actions*
    Arrests                                                   0
    Indictments                                               0
    Convictions                                               0
Administrative Actions*
   Terminations                                               0
    Suspensions                                               1
   Oral or Written Reprimand                                  0
Referrals
    For Prosecution:
        Department of Justice                                 3
           Declined                                           0
        Various States’ Attorney Oﬃces                        0
           Declined                                           0
    For Other Action:
          PBGC Management for Corrective Action               1

     * Results reported for Financial Recoveries, Criminal and Administrative Actions
     include both open and closed cases.




                               SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006    19
20   PENSION BENEFIT GUARANTY CORPORATION
Other Oﬃce of
Inspector General Activities
Review of Proposed Statutory and Regulatory Changes

Statutes

A major responsibility of the OIG under the IG Act is to independently review
changes to laws and regulations that are proposed by PBGC. The Administration
had proposed major pension reform to provide simplicity, ﬂexibility, accuracy and
stability in the deﬁned beneﬁt pension insurance program that PBGC administers.
Both the U.S. Senate and House of Representatives passed pension reform legislation;
as a result, a Conference Committee was recently convened to reconcile the various
provisions. PBGC, along with the Departments of Labor, Treasury and Commerce, has
been working with Congressional staﬀ to maximize the protection of pension plan
participants.

Regulations

PBGC continues in a major eﬀort to streamline its regulations and to improve                     PBGC’s goal for
administration of the pension insurance program, with a focus on making pension-
related information more accurate, complete and transparent. PBGC issued a ﬁnal              regulatory changes
rule on mortality assumptions, and rules relating to liability under ERISA section           is to make pension-
4062(e) and mandatory premium electronic ﬁling are under review at the Oﬃce of
Management and Budget (OMB). We reviewed and commented on these rules in prior               related information
reporting periods.                                                                               more accurate,
                                                                                                  complete and
Internal PBGC Activities
                                                                                                   transparent.
OIG staﬀ members have engaged in several activities within PBGC to promote
fraud prevention, improve relationships between the OIG and PBGC, and provide
consultations to managers to improve agency operations. Among these activities are
the following:

 • As part of our on-going eﬀort with executive management to strengthen PBGC’s
   ethical environment, the Inspector General and General Counsel provided ethics
   training to supervisors and staﬀ that emphasizes ethical leadership and encourage
   thinking beyond the requirements of ethics regulations.
 • The OIG continues to be very involved in PBGC’s other structured mentoring
   programs:
 • The Inspector General and Assistant IG for Audit are participating in a nine-month
   program as one-on-one mentors to two PBGC employees, and
 • The Inspector General is again serving as an executive mentor in the “Leaders
   Growing Leaders” program.

                               SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006    21
                           External Activities
                           Various staﬀ members participated in external professional activities, including the
                           following:

                             • The Inspector General was an active participant of the Executive Council on
                               Integrity and Eﬃciency (ECIE), a council of Inspectors General that promotes
                               collaboration on integrity, economy, and eﬃciency issues that transcend individual
                               agencies. During this reporting period, he continued to participate in several
                               initiatives to improve staﬀ development in the IG community:


                                 • As a member of the Human Resources Committee, the IG led several initiatives
                                   to promote the development of core competencies for auditors, investigators
                                   and other professionals. He co-authored an article titled “Core Curricula for
                                   Leadership, Management and Team Skills” that was published in the Fall issue
                                   of the Journal of Public Inquiry, a professional publication for Inspectors General.


Our Inspector                    • In December, he was elected as Chairman of the Board of Governors for the
                                   newly-formed Inspector General Institute. The Institute combines schools of
General was elected                audit, investigations and management that provide training to over 11,000
                                   professionals in the IG community.
as Chairman of the
Board of Directors of
                                 • He serves as a member Executive Committee of the President’s Council on
the newly-formed IG                Integrity and Eﬃciency (PCIE) representing the Inspector General Institute.
Institute.
                             • Our oﬃce completed its participation in the PCIE/ECIE e-learning initiative with
                               Skillsoft entitled Inspector General e-Learning (IGEL). One hundred percent of our
                               staﬀ participated and provided some valuable feedback to the leaders of this pilot
                               project. This innovative approach to training is a signiﬁcant step in providing staﬀ
                               cost-eﬀective educational oﬀerings.


                             • The IG serves on the International Conference Committee of the Institute of
                               Internal Auditors. The Committee focuses on identifying trends in internal
                               auditing and organizing and hosting international professional development
                               conferences.


                             • The Assistant IG for Audit is a member of the Federal Audit Executive Council
                               (FAEC). The FAEC’s purpose is to discuss and coordinate issues aﬀecting the
                               federal audit community, with special emphasis on audit policy and operations
                               of common interest to FAEC members. The AIGA serves on the FAEC’s Audit
                               Committee which is sponsoring training in April on the new peer review guidance.




                      22   PENSION BENEFIT GUARANTY CORPORATION
  • The IT Audit Manager serves on the Board of Directors of the Baltimore Chapter
    of the Information Systems Audit and Control Association (ISACA). In his
    position as Program Chair, he schedules meeting speakers and topics for the
    members’ professional development. He also works with the Institute of Internal
    Auditors, Information Systems Security Association, Association of Government
    Accountants, and the Certiﬁed Fraud Examiners in developing joint chapter
    programs.


  • An OIG Auditor serves as president of PBGC’s local chapter of the Federal
    Manager’s Association, which meets monthly for lunch to hear speakers on various
    management topics, discuss PBGC issues and network.



Internal OIG Initiatives

OIG COOP Support to Alternate Site

The OIG completed a move and upgrade of its backup equipment, including all
servers to support access to applications and e-mail, to Wilmington, Delaware as
part of its Continuity of Operations Plan. With this move, the OIG has joined PBGC
in locating its backup support to a hot-site outside of the immediate Washington,               OIG’s backup oﬀsite
DC area. This move enables the OIG to provide continued support to its staﬀ in the
                                                                                            information systems
event its headquarters oﬃces are not available. Testing of the installed equipment
and restoration process will begin in June 2006. Once we are comfortable with the           will be implemented
functionality of the backup equipment and its ability to provide ongoing timely
                                                                                                     by June 2006.
support for the OIG processes, the OIG will join PBGC in its COOP testing at least twice
a year.

Improving Section 508 Compliance

The OIG has been working to identify and develop a method to easily convert its
documents, such as reports, to allow the disabled to access this information on our
Web site in accordance with 508 rules. We have begun developing templates for both
creating reports and receiving responses from the Corporation in electronic form to
simplify the conversion process for Web posting and improve compliance with 508
requirements.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006      23
24   PENSION BENEFIT GUARANTY CORPORATION
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the speciﬁc pages in the report where they are
addressed.

Inspector General
Act Reference          Reporting Requirements                             Page
Section 4(a)(2)        Review of legislation and regulations.             21
Section 5(a)(1)        Signiﬁcant problems, abuses, and deﬁciencies.      5-14, 17-18
Section 5(a)(2)        Recommendations with respect to signiﬁcant         5-14, 17-18
                       problems, abuses, and deﬁciencies.
Section 5(a)(3)        Prior signiﬁcant recommendations on which          27
                       corrective action has not been completed.
Section 5(a)(4)        Matters referred to prosecutorial authorities.     17-18
Section 5(a)(5)        Summary of instances in which information          15
                       was refused.
Section 5(a)(6)        List of audit reports by subject matter, showing 26
                       dollar value of questioned costs and
                       recommendations that funds be put to better use.
Section 5(a)(7)        Summary of each particularly signiﬁcant report.    5-14, 17-18
Section 5(a)(8)        Statistical table showing number of reports and    23
                       dollar value of questioned costs.
Section 5(a)(9)        Statistical table showing number of reports and    26
                       dollar value of recommendations that funds be
                       put to better use.
Section 5(a)(10)       Summary of each audit issued before this           15
                       reporting period for which no management
                       decision was made by end of reporting period.
Section 5(a)(11)       Signiﬁcant revised management decisions.           15
Section 5(a)(12)       Signiﬁcant management decisions with which         15
                       the Inspector General disagrees.




                               SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006      25
REPORTS ISSUED WITH QUESTIONED COSTS
AND FUNDS PUT TO BETTER USE*
For the Six-Month Period Ending March 31, 2006



                                                      Number          Questioned         Unsupported       Funds put to
                                                     of Reports         Costs              Costs**          Better Use

  A. For which no management decision had                  9           $2,166,212          $1,377,154              -0-
    been made by the commencement of the
    reporting period.
  B. Which were issued during the reporting                4           $3,616,936          $3,466,668              -0-
    period

  Subtotal (Add A. & B.)                                  13           $5,783,148          $4,843,822              -0-


  C. For which a management decision was                  -0-               -0-                -0-                 -0-
    made during the reporting period.

  (i) dollar value of disallowed costs                    -0-               -0-                -0-                 -0-


  (ii) dollar value of costs not disallowed               -0-               -0-                -0-                 -0-


  D. For which no management decision had                 13           $5,783,148          $4,843,822              -0-
    been made by the end of the reporting
    period.
  E. For which no management decision was                  9           $2,166,212          $1,377,154              -0-
     made within six months of issuance.



*This statistical information is required by Section 5(a)(6)(8) and (9) of the Inspector General Act of 1978, as
amended.
**For some reports issued by PBGC’s Contracts and Control Review Department (CCRD), unsupported costs are a
subset of questioned costs.




                     26         PENSION BENEFIT GUARANTY CORPORATION                              26
SIGNIFICANT PROBLEMS, DEFICIENCIES AND RECOMMENDATIONS




Report Number, Report Title and       Number of             Signiﬁcant Problems Summary of Signiﬁcant
Date Issued                           Signiﬁcant            and Deﬁciencies     Recommendations
                                      Recommendations
96-4/23093-2                                                Reportable            PBGC needs to complete
Audit of the Pension Beneﬁt                                 Condition:            the integration of its ﬁnancial
Guaranty Corporation’s Fiscal                               Integrating           management systems.
Year 1995 Financial Statements                1**           Financial
03/13/1996                                                  Management
                                                            Systems
2003-3/23168-2                                              Reportable            PBGC needs to complete its
Audit of the Pension Beneﬁt                                 Condition:            efforts to fully implement and
Guaranty Corporation’s Fiscal Years                         Implementing          enforce an effective information
2002 - 2001 Financial Statements              2**           & Enforcing           security program.
01/30/2003                                                  Information
                                                            Security Program
2004-2/23176-2                                              Reportable            PBGC needs to improve
Audit of the Pension Beneﬁt                                 Condition:            controls related to single-
Guaranty Corporation’s Fiscal Years                         Improving Single-     employer premiums.
                                               5
2003 - 2004 Financial Statements                            Employer Premium
1/15/2004                                                   Accounting System

2006-1/FA-0014-1                                            Reportable            PBGC needs to strengthen its
Audit of the Pension Beneﬁt                                 Condition:            preparedness for unanticipated
Guaranty Corporation’s Fiscal Years                         Strengthening         incidences and disruptions.
2005 - 2004 Financial Statements                            Preparedness for
                                               3
11/15/2005                                                  Unanticipated
                                                            Incidences &
                                                            Disruptions


* This chart complies with Section 5(a)(1)(2)(3) and (6) of the Inspector General Act of 1978, as Amended.
** Includes Signiﬁcant Recommendations from previous semi-annual reports on which corrective action has not
been completed.




                              SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2006        27
     Glossary
     Questioned Cost
     A cost the OIG has questioned because of an alleged violation of law, regulation,
     contract, grant, cooperative agreement, or other agreement or document governing
     the expenditure of funds; because such cost is not supported by adequate
     documentation; or because the expenditure of funds for the intended purpose is
     unnecessary or unreasonable.

     Unsupported Cost
     A cost the OIG has questioned because of a lack of adequate documentation at the
     time of the audit.

     Disallowed Cost
     A questioned cost that management, in a management decision, has sustained or
     agreed should not be charged to the government.

     Funds to Be Put to Better Use
     Funds the OIG has identiﬁed in an audit recommendation that could be used more
     eﬃciently by reducing outlays, deobligating program or operational funds, avoiding
     unnecessary expenditures, or taking other eﬃciency measures.

     Management Decision
     Management’s evaluation of audit ﬁndings and recommendations and issuance
     of a ﬁnal decision concerning management’s response to such ﬁndings and
     recommendations.

     Final Action
     The completion of all management actions described in a management decision with
     respect to audit ﬁndings and recommendations. If management concluded that no
     actions were necessary, ﬁnal action occurs when a management decision is issued.

     Misconduct
     Action of employees or contractors that violates laws, rules, or regulations and for
     which corrective action is warranted.




28   PENSION BENEFIT GUARANTY CORPORATION
If you want to report or discuss conﬁdentially any instance of
     misconduct, fraud, waste, abuse, or mismanagement,
                        please contact
                the Oﬃce of Inspector General.


                         Telephone:

              The Inspector General’s HOTLINE
                      1-800-303-9737

        For deaf or hard of hearing people, dial FRS
 (800) 877-8339 and give the Hotline number to the agent.

                          Or write:

           Pension Beneﬁt Guaranty Corporation
                Oﬃce of Inspector General
                      PO Box 34177
               Washington, DC 20043-4177
